 Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




       CHIROPRACTIC CARE

Controls Used by Medicare, Medicaid, and
              Other Payers




                    JUNE GIBBS BROWN
                     Inspector General

                      SEPTEMBER 1998
                       OEI-04-97-00490
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                                   HEADQUARTERS

Dwayne Grant, Program Analyst
                           Alan Levine, Program Specialist

Greg Jones, Program Analyst
                             Brian Ritchie, Technical Support Analyst

Graham D. Rawsthorn, Program Analyst
                    Barbara Tedesco, Statistician

Betty Apt, Team Leader





        To obtain copies of this report, please call the Atlanta Regional Office at (404) 562-7723.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To describe how Medicare, Medicaid, and private insurers control chiropractic benefits.

BACKGROUND

The Balanced Budget Act of 1997 required the Health Care Financing Administration (HCFA)
establish new utilization guidelines for Medicare chiropractic care by January 1, 2000. It also
eliminated the X-ray requirement. In addition, New York recently enacted legislation requiring
private insurers to include chiropractic coverage in their benefits packages.

We initiated two inspections to better understand the impact of these changes on the Medicare
and Medicaid programs and to learn more about utilization controls. This report,
"CHIROPRACTIC CARE: Controls Used by Medicare, Medicaid, and Other Payers, (OEI-04-
97-00490)" describes Medicare, Medicaid, and private insurers' mechanisms for controlling
expenditures and protecting the chiropractic benefit from potential waste and abuse. A
companion report, "CHIROPRACTIC CARE: Medicaid Coverage, (OEI-06-97-00480)"
describes current and expected chiropractic care benefits under State Medicaid programs.

Medicare, Medicaid, and private insurers do not consider control of chiropractic benefits a high
priority or an area of major concern. All commented that more could be done to control
utilization of the benefit but that resources are better spent controlling other more costly benefits.

FINDINGS

We found that Medicare, Medicaid, and private insurers rely on utilization caps, X-rays, physician
referrals, co-payments, and post and prepayment reviews, in varying degrees, to control utilization
of chiropractic benefits. Utilization caps are the most widely used, but these and other controls
did not detect or prevent unauthorized Medicare maintenance treatments.

Utilization Caps Are the Most Widely Used Control Mechanisms

Ninety-five percent of Medicare and 46 percent of Medicaid programs use soft caps that can be
exceeded with appropriate justification. Hard caps, which cannot be exceeded, are used by 50
percent of Medicaid programs and 94 percent of private insurers. Federal costs for Medicaid
chiropractic benefits can exceed those for Medicare because Medicaid utilization caps are
typically higher than those for Medicare.




                                             )))))))))))
                                                  i
X-rays Provide Little Control of Chiropractic Benefits

Few private insurers or Medicaid agencies require X-rays to document treatment necessity.
Medicare currently requires X-rays; however, elimination of the X-ray requirement should have
little impact on chiropractic controls since most contractors do not use X-rays as a control
mechanism.

Physician Referral Is Commonly Used as a Control Mechanism for Managed Care, but Not
for Fee-For-Service Plans

Sixty-eight percent of Medicaid and 66 percent of private managed care organizations used
physician referrals to help control chiropractic utilization. However, only 8 percent of Medicaid
and 9 percent of private fee-for-service plans required physician referrals. None of the Medicare
fee-for-service plans required physician referrals.

Co-payments, Coinsurance, and Deductibles are Used to Help Control Chiropractic Benefits
by Medicare and Private Insurers, but Not by Medicaid

Private insurers’ co-payments ranged from $5 to $15 while Medicare coinsurance equaled 20
percent of approved charges. Both private insurers and Medicare used annual deductibles.
Private insurers’ deductibles ranged from $200 to $500 and Medicare’s deductible equaled $100.

Prepayment Reviews Do Not Control Chiropractic Benefits

Medicare and Medicaid contractors typically do prepayment reviews, however, it is basically a
forms verification process. For those claims that exceed the soft caps, Medicare and Medicaid
medical necessity prepayment reviews are mostly paper audits.

Post Payment Reviews are Used by Medicaid, but Not by Medicare, to Help Control
Chiropractic Benefits

Sixty-five percent of Medicaid contractors use post payment reviews to help control chiropractic
utilization. Medicare contractors, however, rarely conduct post payment reviews of chiropractic
claims.

Unauthorized Chiropractic Maintenance Treatments are Not Detected and Prevented

HCFA policies preclude Medicare reimbursements for chiropractic maintenance treatments.
However, only 40 percent of Medicare respondents claimed to do utilization reviews to identify
and prevent such treatments. Our analysis identified over $68 million in probable chiropractic
maintenance treatments in 1996. If left unchecked, this could result in as much as $447 million in
improper Medicare payments from 1998 through 2002.




                                           )))))))))))
                                                ii
RECOMMENDATIONS

This report describes controls used by Medicare, Medicaid, and other payers for chiropractic
benefits. Utilization caps were the most widely used control mechanism. Needless to say, their
intent is to limit the quantity of services. However, neither the utilization caps, nor any of the
other controls, detected and prevented reimbursements for unauthorized Medicare chiropractic
maintenance treatments.

Accordingly, we recommend that HCFA develop system edits to detect and prevent unauthorized
payments for chiropractic maintenance treatments. HCFA may do so by:

 !	    requiring chiropractic physicians to use modifiers to distinguish the categories of the spinal
       joint problems (i.e. acute, exacerbation, recurrence, and chronic), and

 !	    requiring all Medicare contractors to implement system utilization frequency edits to
       identify beneficiaries receiving consecutive months of minimal therapy.

COMMENTS

The HCFA Administrator, the Assistant Secretary for Planning and Evaluation (ASPE), and the
Assistant Secretary for Management and Budget (ASMB) commented on our report. The full
text of their comments are in appendix C.

The HCFA concurred with our recommendations. The Balanced Budget Act of 1997 required
HCFA to develop utilization guidelines for chiropractic care. In developing such guidelines,
HCFA will develop modifiers to distinguish categories of spinal joint problems, and utilization
frequency edits as we recommended.

ASPE agreed that edits to identify inappropriate billings seemed desirable. However, ASPE
commented that our use of “averages,” on pages four through six, to summarize the range of
utilization caps was inappropriate because they did not reflect “real practice.” Our report
provides the reader both the average utilization caps and the actual utilization caps for all
Medicare and Medicaid respondents.

Further, ASPE suggested that more information is needed to substantiate two State Medicaid
Administrators’ claims that physician referrals are effective controls for chiropractic services.
Specifically, ASPE wanted to know how these States measured effectiveness. Additionally,
ASPE noted that it would be helpful to know how the use of chiropractic services is distributed
between managed care and fee-for-service providers. These questions were not part of the scope
of this study. However, we plan to continue our analysis of chiropractic services and utilization in
the future. These and other questions are likely topics for inclusion in future analysis.

ASMB expressed serious concerns about the methodology we used to estimate payments for
probable inappropriate chiropractic maintenance treatments. Specifically, ASMB was concerned
about our use of a 10 percent estimate to represent the Medicare population who received


                                            )))))))))))
                                                 iii
chiropractic care for chronic conditions. The 10 percent estimate, furnished by the American
Chiropractic Association, is a universal percentage estimate of the population at large.
Demographic data and specific analysis is not available to differentiate between the Medicare
population and the population at large. However, we contacted several Medicare Carrier Medical
Directors who stated, based on their reviews of Medicare chiropractic claims, that the 10 percent
appeared to be a reasonable estimate for the Medicare population.




                                           )))))))))))
                                                iv
                              TABLE OF CONTENTS

                                                                                                             PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


  Utilization Caps . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


  X-rays . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


  Physician Referral . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


  Co-payments, Coinsurance, and Deductibles . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


  Prepayment Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


  Post Payment Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


  Maintenance Treatments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES

  Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


  Probable Maintenance Charges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


  Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-1

                              INTRODUCTION

PURPOSE

To describe how Medicare, Medicaid, and private insurers control chiropractic benefits.

BACKGROUND

Chiropractic Treatment

Chiropractic treatment is becoming more commonplace with consumers, and gaining wider
acceptance in the medical profession. Chiropractors treat neuromusculoskeletal disorders and
related functional clinical conditions including, but not limited to, back pain, neck pain and
headaches. Chiropractic care is most commonly sought for treatment of back pain. Back pain is
one of the most common and costly problems affecting adults. An estimated 50 percent of adults
experience back pain each year and almost 20 percent have frequent back pain.

A common chiropractic treatment for low back pain is spinal manipulation. Chiropractors use
either their hands or hand held devices to perform manual spinal manipulations. Manual
manipulations are most commonly performed to correct a subluxation of the spine. According to
chiropractic theory, a subluxation is an incomplete dislocation, off centering, misalignment,
fixation or abnormal spacing of vertebrae or intervertebral units. The Department of Health and
Human Services, Agency for Health Care Policy and Research, has documented spinal
manipulation to be a recommendable method of symptom control for low back pain in adults.1

Growth in Number of Chiropractors

The chiropractic profession is licensed in all States and the District of Columbia. All licensed
chiropractors are entitled by law to use either the title doctor of chiropractic or chiropractic
physician. Approximately 55,000 chiropractors actively practice today, while less than 14,000
existed in 1970, according to the U.S. Census. The number of chiropractors has outgrown the
U.S. population by three-fold. In 1970, almost seven chiropractors practiced per 100,000 U.S.
residents. By 1997, this had increased to over 20 chiropractors per 100,000 residents.

Medicare Chiropractic Eligibility

In 1965, title XVIII of the Social Security Act created Medicare to provide health insurance for
people 65 and over, people who are disabled, and persons with permanent kidney failure.
Medicare has two parts: Hospital Insurance (Part A) and Medical Insurance (Part B). In 1972,
Section 273 of the Social Security Amendment (P.L. 92-603) expanded the definition of physician
under Part B of Medicare to include chiropractors. This made chiropractors eligible to participate


        1
          Agency for Health Care Policy and Research, Pub No. 95-0642, December 1994, Acute Low Back
Problems in Adults

                                               )))))))))))
                                                    1
in the Medicare program. However, the only Medicare reimbursable chiropractic treatment is
manual manipulation of the spine to correct a subluxation demonstrated by X-ray.

Medicaid Chiropractic Eligibility

In 1965, title XIX of the Social Security Act created Medicaid as a program to provide medical
assistance for certain individuals and families with low incomes and resources. This program is
jointly funded by the Federal and State governments. Within broad Federal guidelines each State
(1) establishes its own eligibility standards, (2) sets the type, amount, duration, and scope of
services, (3) establishes rate of payment for services, and (4) administers the program.

In 1972, when chiropractors were recognized as physicians and became eligible to participate in
Medicare, chiropractors also became eligible to participate in Medicaid. Under Medicaid,
however, chiropractic services are not a mandatory benefit, but rather an optional service.
Therefore, it is within each State’s discretion whether to include chiropractic services in their
Medicaid program. If offered, each State also establishes its own levels of services. However,
according to Federal policy for Medicaid, chiropractic services should be limited to manual
manipulation of the spine and X-ray services. Currently, 30 State Medicaid fee-for-service
programs offer chiropractic services.

Private Insurers Chiropractic Benefits

Many private insurers now offer chiropractic benefits. The scope of chiropractic services are
consumer driven. We found insurance plans ranging from no chiropractic coverage to substantial
chiropractic coverage. Several insurers stated that they view the chiropractic benefit as a service
they must provide to remain competitive. Moreover, they expect users of chiropractic services to
“max-out” the benefit each year.

Chiropractic Controls

The Balanced Budget Act of 1997 required the Health Care Financing Administration (HCFA)
establish new utilization guidelines for Medicare chiropractic care by January 1, 2000. It also
eliminated the X-ray requirement. In addition, New York recently enacted legislation requiring
private insurers to include chiropractic coverage in their benefits packages.

We initiated two inspections to better understand the impact of these changes on the Medicare
and Medicaid programs and to learn more about utilization controls. This report,
"CHIROPRACTIC CARE: Controls Used by Medicare, Medicaid, and Other Payers, (OEI-04-
97-00490)" describes Medicare, Medicaid, and private insurers' mechanisms for controlling
expenditures and protecting the chiropractic benefit from potential waste and abuse. A
companion report, "CHIROPRACTIC CARE: Medicaid Coverage, (OEI-06-97-00480)"
describes current and expected chiropractic care benefits under State Medicaid programs.

Medicare, Medicaid, and private insurers all use a variety of mechanisms to help control their
chiropractic benefit. However, most did not consider control of this benefit a high priority or an


                                            )))))))))))
                                                 2
area of major concern. In fact, over 50 percent of Medicare and 60 percent of Medicaid
respondents considered the chiropractic benefit to be a small part of their overall programs. Both
Medicare contractors and State Medicaid agencies commented that more could be done to control
utilization of the chiropractic benefit, but that resources are currently better spent controlling
other more costly benefits. Also, private insurers were not concerned with controlling utilization,
but it was because of their strict utilization caps rather than the size of the benefit.

SCOPE AND METHODOLOGY

We surveyed Medicare contractors, Medicaid agencies, and private insurers. More specifically,
we surveyed:

 !     all Medicare fee-for-service Part B contractors,

 !	    the 10 largest, by number of enrollees, Medicare managed care organizations from 10
       different States,

 !	    all 50 State Medicaid agencies, and the District of Columbia (each were sent a two-part
       survey - one for their fee-for-service contractors and one for their largest, by number of
       enrollees, managed care organizations), and

 !	    twenty private insurers (10 judgmentally selected Federal employee health benefit plans,
       and benefit managers for the 10 largest, by number of employees, private sector
       companies).

In instances where respondents did not answer every survey question, our percentages are based
on the number who responded.

In addition to the surveys, we did on-site evaluations of one Medicare fee-for-service contractor,
one Medicare managed care organization, two Medicaid fee-for-service contractors, and three
Medicaid managed care organizations. Moreover, we interviewed officials with the Indiana
Chiropractic Association, the American Chiropractic Association, and the Carrier Medical
Director Chiropractic Clinical Workgroup.

Finally, we used a 1 percent sample of HCFA’s 1996 National Claims History data to determine if
Medicare contractors paid claims in accordance with HCFA policies, and to quantify the extent of
chiropractic utilization. Appendix A further details our scope and methodology.

                                             ----
We conducted our inspection between October 1997 and December 1997. We conducted this
inspection in accordance with Quality Standards for Inspections issued by the President’s Council
on Integrity and Efficiency.




                                            )))))))))))
                                                 3
                                         FINDINGS

We found that Medicare, Medicaid, and private insurers use a variety of techniques to control
utilization of chiropractic benefits. Allowable chiropractic benefits vary in both quantity and type
of treatments. Along with varying benefits come varying controls. Typical controls include
utilization caps, X-rays, physician referrals, co-payments, and post and prepayment reviews.
Utilization caps are the most widely used, but these and other controls did not detect or prevent
unauthorized Medicare maintenance treatments.

UTILIZATION CAPS ARE THE MOST WIDELY USED CONTROL MECHANISMS

Limiting the number of visits by establishing utilization caps was the most widely used control
mechanism reported by all groups surveyed. A companion report on chiropractic benefits for
Medicaid beneficiaries discusses benefits, treatment limits, and exceptions in detail (Chiropractic
Care: Medicaid Coverage, OEI-06-97-00480).

Utilization caps are most commonly broken down into two separate types - soft caps and hard
caps.

Soft caps are established service limits that can be exceeded with appropriate justification. For
example, one such justification would be documentation that a beneficiary has aggravated an
existing condition.

Hard caps, as the name implies, are concrete service limits or dollar amounts that cannot be
exceeded for any reason within a specified time frame.

Table 1 shows the average soft and hard utilization caps for respondents included in our survey.

                                             TABLE 1
                     AVERAGE SOFT AND HARD UTILIZATION CAPS
                                      MEDICARE        MEDICAID       PRIVATE
                    SOFT CAPS              21              28            N/A
                    HARD CAPS             N/A             104             27

Ninety-five Percent of Medicare and 46 Percent of Medicaid Programs Use Soft Caps

Ninety-five percent (52 of 55) of all Medicare survey respondents said they use soft caps. The
soft caps ranged from 11 to 52 treatments per year, with 12 treatments being the most common.
On average, the Medicare respondents used a soft cap of 21 treatments. Table 2 shows
chiropractic soft caps used by the Medicare respondents included in our survey.



                                            )))))))))))
                                                 4
                                                    TABLE 2
                          MEDICARE CHIROPRACTIC SOFT CAPS
                               TREATMENTS PER YEAR
 # Treatments     11    12      18        22        24        28        29        30        40        46        48   51   52
 Respondents       1    29      3         1         4         3         1         1         2         1          2   1    3

HCFA requires all Medicare contractors to establish soft caps. Each contractor, however,
determines the level of the cap (i.e. the number of treatments). HCFA further requires all
Medicare contractors to evaluate the effectiveness of their caps on a quarterly basis. Based on
these evaluations, HCFA granted 5 percent (3 of 55) of its contractors permission to deactivate
their chiropractic caps. The three contractors documented that their soft caps were not cost
effective. Instead, they now focus on post payment reviews to identify aberrant providers.

Forty-six percent (12 of 26) of States that provide chiropractic benefits reported using soft caps.
The soft caps ranged from 1 to 80 treatments per year, with the average being 28 treatments.
Table 3 shows chiropractic soft cap limits used by State Medicaid Agencies.

                                                    TABLE 3
                             MEDICAID CHIROPRACTIC SOFT CAPS
                                  TREATMENTS PER YEAR
       # Treatments      1      6         10        12        18        20        24        30        48        60   80
       Respondents       1      1         1         1         1         1         2         1         1          1   1

Fifty Percent of Medicaid Programs and 94 Percent of Private Insurers Use Hard Caps

Half (13 of 26) of the States that provide chiropractic benefits reported using hard caps to control
their Medicaid chiropractic benefits. The hard caps ranged from 12 to 365 treatments per year.
The average hard cap is 104 treatments, however, this includes three States that allow one
treatment per day. Excluding these three States, the average Medicaid hard cap is 29 treatments.
Table 4 shows the chiropractic hard caps used by State Medicaid agencies.

                                                    TABLE 4
                          MEDICAID CHIROPRACTIC HARD CAPS
                               TREATMENTS PER YEAR
                 # Treatments        12        18        20        24        25        50        56        365
                 Respondents         2         1         1         3         1         1         1          3




                                                    )))))))))))
                                                         5
Ninety-four percent (16 of 17) of private insurers relied on hard caps to control benefit utilization.
The 16 private insurers used 11 utilization caps and 5 financial caps. The utilization caps ranged
from 12 to 60 treatments per year, with the average being 27 treatments. Table 5 shows the
chiropractic utilization hard caps used by private insurers.

                                               TABLE 5
                   PRIVATE CHIROPRACTIC UTILIZATION HARD CAPS
                              TREATMENTS PER YEAR
                 # Treatments      12    20      24     25   26        30   40       60
                 Respondents       2      2       1     1     1        2    1        1

The financial caps, used by private insurers, ranged from $225 to $2,000 per year, with the
average being $1,035. Table 6 shows the chiropractic financial hard caps used by private insurers.

                                               TABLE 6
                    PRIVATE CHIROPRACTIC FINANCIAL HARD CAPS
                              TREATMENTS PER YEAR
                   $ Cap                 $225         $250        $700      $2000
                   Respondents             1           1           1             2

Federal Costs for Medicaid Chiropractic Benefits Can Exceed That for Medicare

Twenty-six States offer Medicaid chiropractic benefits. However, we limited our comparative
analysis of Medicaid and Medicare Federal costs for chiropractic benefits to 24 States. We did so
because one State did not have a Medicaid utilization cap and the Medicare contractor in another
State did not have a utilization cap.

The Federal reimbursement rates and cost per treatment rates for Medicaid chiropractic
treatments are typically lower than they are for Medicare. Medicaid Federal matching
reimbursement rates for the 24 States ranges from 50 percent to over 73 percent with 60 percent
being the average. This is lower than Medicare, where Federal costs are 80 percent of allowed
charges. Likewise, the average Federal cost for Medicaid manual manipulations of the spine is
only $8.92, but for Medicare the average Federal cost is $18.92.

However, overall Medicaid Federal costs for chiropractic services can exceed the cost for such
services paid for by Medicare. This is because Medicaid’s utilization caps are significantly higher
than Medicare’s. Sixty-seven percent (16 of 24) of States offering chiropractic care through their
Medicaid fee-for-service programs have higher utilization caps than Medicare. In one State, for
example, the Medicare utilization cap is 12 treatments per year while the Medicaid utilization cap
is 50 treatments.


                                               )))))))))))
                                                    6
Medicaid’s average utilization cap for the 24 States is 71 treatments per year, whereas Medicare’s
average utilization cap is only 19 treatments per year. Federal costs, at the maximum utilization
cap for Medicaid chiropractic benefits, average $554 per person, whereas in Medicare it is only
$365 per person.

X-RAYS PROVIDE LITTLE CONTROL OF CHIROPRACTIC BENEFITS

Few Medicaid Agencies and Private Insurers Require X-rays to Document Treatment
Necessity

Thirty-one percent (8 of 26) of Medicaid programs require X-rays. However, 58 percent (15 of
26) of Medicaid programs will reimburse chiropractors for X-rays.

Only 12 percent (2 of 17) of private insurers require X-rays to ensure appropriateness of
chiropractic claims.

Elimination of the X-ray Requirement Should Have Little Impact on Chiropractic Controls
since Most Medicare Contractors Do Not Use X-rays as a Control Mechanism

Seventy-eight percent (43 of 55) of Medicare respondents claimed X-rays were not essential for
ensuring the appropriateness of chiropractic claims. They said chiropractic benefit control would
not be affected by the Balanced Budget Act of 1997, which eliminates the X-ray requirement by
the year 2000. Several respondents commented that they do not use X-rays, but rather they
compare diagnosis with treatment plans to determine appropriateness of treatments.

The remaining 22 percent (12 of 55) said elimination of the X-ray requirement would impact their
ability to verify spinal subluxations.

PHYSICIAN REFERRAL IS COMMONLY USED AS A CONTROL MECHANISM FOR
MANAGED CARE, BUT NOT FOR FEE-FOR-SERVICE PLANS

Physician Referral Is Common for Managed Care Plans

In 68 percent (15 of 22) of Medicaid managed care organizations and 66 percent (4 of 6) of
private managed care organizations, physician referrals are required to obtain chiropractic care.
According to the American Chiropractic Association, this common managed care gatekeeper
practice restricts access to chiropractic care.

Private insurers typically use physician referrals in conjunction with hard caps to control
chiropractic utilization. Only one private insurer used physician referrals as its only control
mechanism.

Few Fee-For-Service Programs Require Physician Referral




                                             )))))))))))
                                                  7
Overwhelmingly, Medicare, Medicaid, and private insurers allow direct access to chiropractors
without a physician referral. No Medicare fee-for-service program required physician referral for
access to chiropractors.

Only 8 percent (2 of 26) of Medicaid fee-for-service programs require physician referrals to
access chiropractic services. The two Medicaid programs that do require physician referrals,
however, said physician referral is a very effective control mechanism. It allows primary care
physicians to monitor and coordinate clients’ health care needs.

About 9 percent (1 of 11) of private fee-for-service insurers require physician referrals to access
chiropractic services.

CO-PAYMENTS, COINSURANCE, AND DEDUCTIBLES ARE USED TO HELP
CONTROL CHIROPRACTIC BENEFITS BY MEDICARE AND PRIVATE INSURERS,
BUT NOT BY MEDICAID

Medicare and private insurers require co-payments, coinsurance, or deductibles. Medicaid
programs, however, typically do not require co-payments, coinsurance, or deductibles.

A co-payment is a set amount beneficiaries must pay when they visit a physician. The private
insurers in our survey had co-payments ranging from $5.00 to $15.00 per chiropractic treatment.
These co-payments are common in both managed care and fee-for-service plans.

Coinsurance is the percentage of medical expenses for which a patient is responsible. For
Medicare Part B services, coinsurance equals 20 percent of approved charges.

A deductible is the amount a beneficiary must pay before a health plan begins payment for
covered services. Medicare has a $100 annual deductible for Part B services, including
chiropractic treatments. Private insurers’ yearly deductibles ranged from $200 to $500 per year.
These deductibles applied to all physician services, including chiropractic care.

Medicaid fee-for-service programs required co-payments in only three States. These co-payments
ranged from 50 cents to $2.00 per chiropractic visit. Likewise, only one Medicaid managed care
organization responded that a co-payment was required -- $1.00 per visit.

Such patient cost sharing may be important when considering how best to control chiropractic
utilization. A study by the Agency for Health Care Policy and Research suggests that the actual
out-of-pocket expense a patient incurs greatly affects their use of chiropractic services.2 To
illustrate, the study shows that when patients have to share 25 percent or more of the cost, they
decrease their chiropractic usage by half.

PREPAYMENT REVIEWS DO NOT CONTROL CHIROPRACTIC BENEFITS


        2
          Agency for Health Care Policy and Research, Pub No. HS06920, 1996, The Affect of Cost Sharing on
the Use of Chiropractic Services

                                                )))))))))))
                                                     8
Medicare and Medicaid Contractors Typically Do Prepayment Reviews, However, it Is
Basically a Forms Verification Process

All Medicare and Medicaid contractors conduct prepayment reviews. However, the reviews are

merely computerized edits or manual reviews to ensure that claim forms are properly completed. 

The level of prepayment review for Medicare and Medicaid is similar and usually includes the

following edits:


 !     appropriate procedure codes,

 !     appropriate diagnosis codes,

 !     date of X-ray,

 !     date of first treatment falling within a specified time period of the X-ray date,

 !     appropriate physician identification number, and 

 !     no more than one treatment per day.


Medicare and Medicaid Prepayment Reviews for Medical Necessity Are Paper Audits

Medicare and Medicaid policies require that all services be medically necessary. However,
Medicare and Medicaid contractors generally do not verify the medical necessity of chiropractic
treatments.

Medicare and Medicaid contractors, for example, typically review claims for medical necessity
only if they exceed their soft caps. One Medicare contractor’s policy states “services exceeding
more than what Medicare allows, in a given time frame, are subject to review for medical
necessity.” Another commented that “we review every claim for medical necessity that exceeds
the cap.” A Medicaid agency said “medical necessity must be documented in order to receive
additional treatments (beyond the utilization cap).”

Medical necessity reviews in excess of the caps, however, are paper audits. Contractors typically
determine medical necessity by verifying that a claim form was completed properly. They verify
that the diagnosis codes are from the approved list. In addition, they verify that comments, such
as “aggravated existing condition,” are on the claim form. In effect, such reviews are “check the
appropriate box” edits, and not verification that services are truly medically necessary. Patient
records and other documentation of medical necessity are typically not reviewed.




POST PAYMENT REVIEWS ARE USED BY MEDICAID, BUT NOT BY MEDICARE,
TO HELP CONTROL CHIROPRACTIC BENEFITS

Medicaid Contractors Use Post Payment Reviews to Help Control Chiropractic Utilization

Sixty-five percent (17 of 26) of State Medicaid fee-for-service agencies monitor and control
chiropractic claims using post payment reviews. The reviews are typically limited to quarterly


                                             )))))))))))
                                                  9
Surveillance and Utilization Review Surveys. Such reviews identify aberrant providers. Three
States said they do not do more extensive individual reviews due to the small nature of the
chiropractic program and the limited number of problem claims found in the past.

Medicare Contractors Rarely Conduct Post Payment Reviews of Chiropractic Claims

HCFA policy requires Medicare contractors to conduct focused medical reviews and
comprehensive medical reviews. A focused review is a treatment specific audit, whereas a
comprehensive review is a provider specific audit. It is up to the contractors to determine which
benefits to review. All Medicare respondents conduct these reviews, however, most had focused
little to no activity on chiropractic benefits since 1994.

Eighteen percent (10 of 55) of Medicare respondents claimed to conduct focused reviews of
chiropractic benefits. Since 1994, three of the 10 respondents claimed to have saved about
$759,000 as a result of focused reviews. However, of the respondents, one accounted for over 99
percent of those savings. The remaining seven respondents conducted, on average, less than two
focused reviews per year.

Thirty-six percent (20 of 55) of Medicare respondents claimed to conduct comprehensive reviews
of chiropractic benefits. Ten respondents claimed their comprehensive reviews resulted in
financial savings totaling about $330,500. However, one of the respondents accounted for about
71 percent of those savings. The remaining respondents conducted varying numbers of reviews
resulting in such things as educational efforts and a couple of fraud referrals.

UNAUTHORIZED CHIROPRACTIC MAINTENANCE TREATMENTS ARE NOT
DETECTED AND PREVENTED

According to HCFA policy,3 chiropractic maintenance treatments are not authorized for payment.
However, our analysis of a 1 percent sample of HCFA’s National Claims History database
showed that in 1996, Medicare likely paid for 28,889 chiropractic maintenance treatments. These
inappropriate maintenance treatments cost Medicare $688,821. This projects to over $68 million
for the Medicare program in 1996. Projected over five years, Medicare reimbursements for
unauthorized chiropractic maintenance treatments is about $447 million.


Chiropractic Coverage Policies

HCFA’s Medicare Carrier Manual identifies treatment of acute and chronic subluxations as
Medicare reimbursable conditions. Maintenance treatments, however, are not a covered service.

HCFA and local carrier policies, and Agency for Health Care Policy and Research guidelines,
show that chiropractic treatment for acute conditions should consist of intense treatments early on
with additional treatments tapering off quickly. To illustrate, the HCFA approved Medicare Part

       3
           HCFA Medicare Carrier Manual, section 2251.1

                                               )))))))))))
                                                   10
B Model Local Medical Review Policy for Chiropractic Service calls for “vigorous therapy” the
first month, “less vigorous therapy” the second month, and finally, “minimum therapy” of up to
four treatments the third month.

However, HCFA and local carrier policies allow chiropractic treatment for chronic conditions.
Such conditions require less frequent treatments than acute conditions. A patient’s condition is
considered chronic if it has existed for an extended period of time. A chronic condition is not
expected to be completely resolved, but continued chiropractic therapy is expected to result in
some functional improvement. Hence, chiropractic treatments may need to extend over long
periods.

On the surface, it seems difficult to distinguish between unauthorized chiropractic maintenance
treatments and authorized treatments for chronic conditions. The treatment patterns are similar.
Unauthorized chiropractic maintenance treatments are generally indicated by consecutive months
of minimal therapy of four treatments or less. Likewise, authorized chiropractic treatments for
chronic conditions are generally indicated by four or fewer treatments per month for an extended
time period.

It is possible, however, to distinguish between the two. To illustrate, a utilization frequency
analysis of chiropractic treatments will enable carrier staff to identify potential unauthorized
maintenance treatments. However, some of these treatments could be for authorized chronic
conditions. Therefore, carrier staff must also review individual claims documentation to identify
treatments for chronic conditions. Beneficiary symptoms and chiropractor diagnosis are two
pieces of claims information that allow carrier staff to distinguish between treatments for chronic
conditions and maintenance.

Estimated Medicare Reimbursement for Maintenance Treatments

To estimate potential unauthorized Medicare reimbursements for chiropractic maintenance
treatments, we conducted a utilization frequency analysis of chiropractic treatments in 1996.
Thereafter, we adjusted our findings to exclude possible treatments for chronic conditions. In
making the adjustment, we did not review individual claims, but rather we used an estimate on the
extent of chronic conditions nationwide.

We based our utilization frequency analysis on a 1 percent sample of HCFA’s 1996 National
Claims History file. We used the local model policy criteria of minimum therapy of four
treatments or less in the third and final month of treatment. We then identified beneficiaries with
treatment utilization of two or more consecutive months of minimum therapy. This analysis
identified beneficiaries who received either maintenance or chronic chiropractic treatments (see
appendix A for additional information on our methodology).

HCFA data files did not distinguish between treatments for acute or chronic conditions.
Therefore, we adjusted our findings by deleting chiropractic treatments for possible chronic
conditions. To do so, we used information provided by the American Chiropractic Association.
That research showed that 10 percent of chiropractic conditions are chronic. After eliminating


                                            )))))))))))
                                                11
beneficiaries with chronic conditions from our analysis, we concluded that 7,594 Medicare
beneficiaries received 28,889 probable unauthorized maintenance treatments at a cost of
$688,821. Table 7 summarizes maintenance treatments in 1996.

                                       TABLE 7
               NUMBER OF MEDICARE BENEFICIARIES RECEIVING UP
              TO FOUR CHIROPRACTIC TREATMENTS DURING TWO OR
                        MORE CONSECUTIVE MONTHS IN 1996
               # Beneficiaries       #         Probable   Allowed
                                Consecutive  Maintenance  Amounts
                                  Months      Treatments
                          3,298      2              5,259  $125,058
                          1,486      3              4,370  $104,321
                            855      4              3,545    $84,788
                            563      5              3,090    $74,388
                            348      6              2,256    $53,751
                            247      7              1,881    $45,103
                            187      8              1,585    $37,462
                            128      9              1,204    $28,298
                            138     10              1,504    $36,012
                             88     11                962    $23,356
                            256     12              3,233    $76,284
                          7,594                    28,889  $688,821

Our findings in Table 7 are based on a 1 percent sample, therefore, we projected them to the
Medicare population. We concluded that 759,400 Medicare beneficiaries received 2,888,900
probable chiropractic maintenance treatments at a cost to the Medicare program of $68,882,100.
Assuming chiropractic reimbursements continue to increase by 6.87 percent per year, Medicare
reimbursements for unauthorized chiropractic maintenance treatments, over a five year window
(1998-2002), would be about $447 million.

At the request of HCFA officials, we included the above information, broken out by State, in
appendix B.




                                           )))))))))))
                                               12
                      RECOMMENDATIONS

This report describes controls used by Medicare, Medicaid, and other payers for chiropractic
benefits. Utilization caps were the most widely used control mechanism. Needless to say, their
intent is to limit the quantity of services. However, neither the utilization caps, nor any of the
other controls, detected and prevented reimbursements for unauthorized Medicare chiropractic
maintenance treatments.

Accordingly, we recommend that HCFA develop system edits to detect and prevent unauthorized
payments for chiropractic maintenance treatments. HCFA can do so by:

 !	    requiring chiropractic physicians to use modifiers to distinguish the categories of the spinal
       joint problems (i.e. acute, exacerbation, recurrence, and chronic), and

 !	    requiring all Medicare contractors to implement system utilization frequency edits to
       identify beneficiaries receiving consecutive months of minimal therapy.




                                            )))))))))))
                                                13
                                      COMMENTS

The HCFA Administrator, the Assistant Secretary for Planning and Evaluation (ASPE), and the
Assistant Secretary for Management and Budget (ASMB) commented on our report. The full
text of their comments are in appendix C.

The HCFA concurred with our recommendations. The Balanced Budget Act of 1997 required
HCFA to develop utilization guidelines for chiropractic care. In developing such guidelines,
HCFA will develop modifiers to distinguish categories of spinal joint problems, and utilization
frequency edits as we recommended.

ASPE agreed that edits to identify inappropriate billings seemed desirable. However, ASPE
commented that our use of “averages,” on pages four through six, to summarize the range of
utilization caps was inappropriate because they did not reflect “real practice.” Our report
provides the reader both the average utilization caps and the actual utilization caps for all
Medicare and Medicaid respondents.

Further, ASPE suggested that more information is needed to substantiate two State Medicaid
Administrators’ claims that physician referrals are effective controls for chiropractic services.
Specifically, ASPE wanted to know how these States measured effectiveness. Additionally,
ASPE noted that it would be helpful to know how the use of chiropractic services are distributed
between managed care and fee-for-service providers. These questions were not part of the scope
of this study. However, we plan to continue our analysis of chiropractic services and utilization in
the future. These and other questions are likely topics for inclusion in future analysis.

ASMB expressed serious concerns about the methodology we used to estimate payments for
probable inappropriate chiropractic maintenance treatments. Specifically, ASMB was concerned
about our use of a 10 percent estimate to represent the Medicare population who received
chiropractic care for chronic conditions. The 10 percent estimate, furnished by the American
Chiropractic Association, is a universal percentage estimate of the population at large.
Demographic data and specific analysis is not available to differentiate between the Medicare
population and the population at large. However, we contacted several Medicare Carrier Medical
Directors who stated, based on their reviews of Medicare chiropractic claims, that the 10 percent
appeared to be a reasonable estimate for the Medicare population. Additionally, HCFA’s
implementation of our recommendations will produce demographic data needed to more precisely
differentiate chiropractic chronic care use by Medicare beneficiaries.




                                            )))))))))))
                                                14
                                  APPENDIX A

SCOPE AND METHODOLOGY

Medicare

We had 55 responses to the Medicare fee-for-service survey. We received responses for all 50
States. The additional five responses are detailed in Table 1.

                                             TABLE 1
                                    MEDICARE RESPONSES
                                                                    # of responses
                50 States                                                 50
                California - serviced by 2 contractors                     1
                Missouri - serviced by 2 contractors                       1
                New York - serviced by 3 contractors                       2
                District of Columbia                                       1
                Total                                                     55

Medicaid

Our sample population consisted of 26 State fee-for-service programs that offered a chiropractic
benefit to the majority of their Medicaid population. Although 30 State fee-for-service programs
reported offering some type of chiropractic service to Medicaid beneficiaries, four States only
offered a very limited benefit to children as part of their Early and Periodic Screening, Diagnostic
and Treatment program. Due to the limited scope of those four programs, we excluded them
from our sample.

Although we surveyed both State Medicaid fee-for-service and managed care programs, for the
purposes of this study we limited our primary Medicaid focus to those 26 State programs offering
a chiropractic benefit through the traditional fee-for-service environment. Observations made
regarding State Medicaid managed care programs will be noted by specifically referring to that
group.




Utilization Caps

                                            )))))))))))
                                               A-1
Seven Medicare utilization caps and nine State Medicaid utilization caps are based on time
periods other than one year. For such States, we annualized their utilization caps accordingly.
For example, one State reported a utilization cap of 76 treatments in 540 days. Annualized, the
cap is 51 treatments.

Probable Maintenance Treatments

To identify probable maintenance treatments we took several steps. First, we used a 1 percent
sample of HCFA’s 1996 National Claims History file and identified 13,974 Medicare beneficiaries
who received 122,047 chiropractic treatments at a cost of $2,937,668. Next we did a utilization
frequency analysis of this data and identified 8,990 beneficiaries with two or more consecutive
months of minimal therapy (1-4 treatments). These beneficiaries received 41,094 chiropractic
treatments at a cost of $982,588. We considered this subpopulation to be receiving unauthorized
maintenance treatments or treatments for chronic conditions.

In order to account for the chronic conditions, we used information provided by the American
Chiropractic Association that showed that 10 percent of chiropractic conditions are chronic. To
be conservative, we assumed that the full 10 percent of chronic conditions were included in our
sample. Therefore, we took 10 percent of the 1 percent figures and subtracted them from our
subpopulation figures. For example, we took 10 percent of the $2,937,668 and subtracted it from
our subpopulation treatment costs of $982,588. This resulted in probable unauthorized
maintenance charges, adjusted for chronic conditions, of $688,821.

We used the same process to reduce the number of beneficiaries to 7,594 and the number of
chiropractic treatments to 28,889. Since these numbers are based on a 1 percent sample, we
project them to the Medicare population to conclude that 759,400 Medicare beneficiaries received
2,888,900 probable chiropractic maintenance treatments at a cost to the Medicare program of
$68,882,100.

Using Part B Extract and Summary System data for 1994 through 1997, we calculated the growth
in Medicare chiropractic payments. This growth averaged 6.87 percent per year. We then used
this growth rate to predict reimbursements for maintenance treatments for 1998 through 2002.
Accepting that the $68.8 million in maintenance costs for 1996 would continue to go unchecked,
and applying the 6.87 percent average growth, Medicare reimbursements for chiropractic
maintenance treatments can cost in excess of $447 million from 1998 through 2002.

Private Insurers

Of the 20 private insurers surveyed, 10 were judgmentally selected Federal employee health
benefit plans, and the other 10 were benefit managers for the largest, by number of employees,
private sector companies.

All 10 Federal employee plans responded, two of which had both a “high” and a “standard”
option. Therefore, we have 12 Federal employee plan responses.



                                           )))))))))))
                                              A-2
Seven of the 10 private sector companies responded, two of which offered both fee-for-service
and managed care plans. Therefore, we have 9 private sector company responses.

Combined, we received 21 private insurer responses to our chiropractic survey. However, four
private insurers did not offer chiropractic benefits. Therefore, we based our analysis on the 17
private insurers that offered chiropractic benefits.

We included private insurers in our inspection for comparison purposes. We do not attempt to
generalize to the private insurance population.




                                           )))))))))))
                                              A-3
                             APPENDIX B

                          PROBABLE MAINTENANCE CHARGES
             TOTAL         TOTAL                            ALLOWED          MAINTENANCE
          CHIROPRACTIC    ALLOWED      MAINTENANCE         MAINTENANCE      CHARGES AS % OF
STATE     TREATMENTS      CHARGES      TREATMENTS            CHARGES       ALLOWED CHARGES
  NH               413       $9,902                  147         $3,577         36.1%
  DC                59       $1,586                   20           $540         34.0%
   IA             5,802     $130,193             1,975           $44,109        33.9%
  VT                333       $7,889               111            $2,583        32.7%
  SD                784      $17,343               231            $5,085        29.3%
  MI              6,994     $175,359             2,019           $50,296        28.7%
  MO              2,671      $58,477               756           $16,440        28.1%
  GA              2,654      $63,211               745           $17,662        27.9%
  DE                312       $7,863                85            $2,129        27.1%
  MA              2,059      $53,678               545           $14,147        26.4%
  OH              4,685     $111,027             1,232           $28,650        25.8%
  ND                858      $19,600               221            $5,037        25.7%
  AZ              2,415      $60,058               618           $15,285        25.5%
  PA              7,340     $178,658             1,869           $45,255        25.3%
   IL             6,739     $156,487             1,719           $39,517        25.3%
  ME              1,035      $25,737               259            $6,471        25.1%
  NM                349       $8,036                86            $1,990        24.8%
  UT                512      $12,093               127            $2,973        24.6%
  VA              1,878      $44,046               456           $10,449        23.7%
  KY              1,213      $25,875               292            $6,065        23.4%
  OR              1,598      $37,751               377            $8,834        23.4%
  IN              2,277      $50,692               535           $11,758        23.2%
  WA              3,635      $90,893               841           $21,081        23.2%
  CA              8,133     $208,445               245           $47,839        23.0%
  CO              1,059      $25,343             1,881            $5,818        23.0%
  CT              1,237      $33,982               281            $7,762        22.8%
  WY                223       $5,114                51            $1,160        22.7%
  NY              7,988     $210,107             1,833           $47,299        22.5%
  MN              2,916      $68,753             1,123           $15,008        21.8%
  NJ              5,092     $137,541               645           $30,038        21.8%
  TN              2,623      $59,188             1,045           $12,702        21.5%
  WI              4,719     $107,771               567           $23,200        21.5%
  MT                507      $11,360               107            $2,409        21.2%
  WV                464      $10,443               100            $2,189        21.0%
  KS              2,911      $67,623               608           $13,849        20.5%
  AK                188       $5,179                37            $1,046        20.2%
  NC              2,253      $50,867               457           $10,119        19.9%
  TX              7,445     $172,613             1,481           $34,071        19.7%
  AL              1,157      $25,410               231            $4,985        19.6%
  NE              1,988      $44,682               390            $8,720        19.5%
  FL              6,701     $166,095             1,294           $31,948        19.2%
  MD                860      $20,989               162            $3,947        18.8%
  ID                704      $15,722               127            $2,786        17.7%
  SC                800      $17,540               145            $3,102        17.7%
  AR              1,701      $38,920               287            $6,594        16.9%
  NV                650      $16,521               106            $2,695        16.3%
   RI               192       $4,972                30              $773        15.5%
  PR                 79       $1,632                12              $252        15.4%
  LA              1,069      $23,820               163            $3,572        15.0%
  HI                155       $4,169                22              $604        14.5%
  MS                546      $11,758                67            $1,471        12.5%
  OK              1,058      $24,267               130            $2,924        12.0%
Unknown              14         $388                 0                $0        0.0%
TOTALS          122,047   $2,937,668            28,889          $688,821        23.4%


                                       )))))))))))
                                          B - 1

                                APPENDIX C

COMMENTS ON THE DRAFT REPORT

We present, in full, comments from the HCFA Administrator, the Assistant Secretary for Planning
and Evaluation (ASPE), and the Assistant Secretary for Management and Budget (ASMB).




                                          )))))))))))
                                             C-1
)))))))))))
   C - 2

)))))))))))
   C - 3

)))))))))))
   C - 4

)))))))))))
   C - 5

)))))))))))
   C - 6

)))))))))))
   C - 7

